                         Office of Inspector General
                         Legal Services Corporation



Inspector General
Jeffrey E. Schanz


3333 K Street, NW, 3rd Floor
Washington, D C 20007-3558
202.295.1660 (p) 202.337.6616 (f)
wv.'W.oig. lsc.gov


            March 26, 2014

            Mr. Lance Daniels
            Executive Director
            Appalachian Research and Defense Fund of Kentucky
            120 North Front Avenue
            Prestonsburg, KY 41653

            Dear Mr. Daniels :

            Enclosed is the Office of Inspector General's (OIG) final report of our audit on Selected
            Internal Controls at Appalachian Research and Defense Fund. The OIG reviewed your
            comments to the draft report. Your comments , excluding the accounting guide, are
            included in the final report as Appendix II.

           The OIG considers your comments responsive to the four recommendations. Since the
           actions implemented have fully addressed Recommendations 1, 2, and 4, we consider
           them as closed. However, Recommendation 3 will remain open until your Board of
           Directors approves the revised accounting guide and the OIG receives written
           notification thereof.

           We thank you and your staff for your cooperation and assistance.



            S, c; c ('.             yO _
         QXtf;chanz ~
            Inspector General

            Enclosure

           cc:       Legal Services Corporation
                     Jim Sandman, President

                     Lynn Jennings, Vice President
                       for Grants Management



                                                                                        =ILLSC
                                                                                        II ~'.     r __ For EopaI)ouria-
    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL




     REPORT ON FOLLOW-UP OF

Appalachian Research and Defense
        Fund of Kentucky

              RNO 618030


           Report No. AU14-02

              March 2014



             www.oiq.lsc.qov
                                 INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) conducted a
follow-up audit on findings identified during a previous audit conducted at the
Appalachian Research and Defense Fund of Kentucky, ("AppaIReD" or "grantee")
related to specific grantee operations and oversight. Audit work was conducted at the
grantee's main office in Prestonsburg, Kentucky and at LSC headquarters in
Washington , DC . A final audit report was issued on August 22, 2011 entitled Report on
Selected Internal Controls at Appalachian Research & Defense Fund of Kentucky, Inc.
In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee" ... is required
to establish and maintain adequate accounting records and internal control procedures ."
The Accounting Guide defines internal control as follows:

             [T]he process put in place, managed and maintained by the
             recipient's board of directors and management, which is
             designed to provide reasonable assurance of achieving the
             following objectives:
             1. safeguarding of assets against unauthorized use or
                 disposition ;
             2. reliability of financial information and reporting ; and
             3. compliance with regulations and laws that have a direct
                 and material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee "must rely upon
[ ] ... its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.


                                 BACKGROUND
The OIG issued a Report on Selected Internal Controls at Appalachian Research &
Defense Fund of Kentucky, Inc. Report No. AU11-05 on August 22, 2011 . In that
report, the OIG presented 12 findings, some with multiple issues, describing significant
internal control and/or accounting weaknesses that needed to be improved by
AppalReD 's management. The control and accounting weaknesses identified led us to
question the reliability of the information that we received and raised questions about
integrity of the general ledger entries and account balances generated from the
accounting system for the period under review and presented to us during the original
audit. The OIG made one overall recommendation. The recommendation was for
AppalReD's Board of Directors to obtain the services of a skilled individual, not
associated with the grantee, to review and make all necessary changes to the internal
control system, the accounting system, and the accounting department's organizational
structure to ensure that the grantee's resources are properly controlled, accounted for,
and safeguarded .

                                           1
                                            OBJECTIVE

The overall objective of this audit was to determine if the findings identified in the initial
report had been corrected. This included determining whether the recommendation
contained in the initial report was implemented and that the actions taken adequately
addressed the deficiencies noted .


                                     OVERALL EVALUATION

Overall, grantee management corrected most of the findings and related issues
identified in the original audit report. AppalReD's Board of Directors did implement the
audit recommendation.         An experienced Fiscal Manager with an educational
background in accounting and experience in managing an accounting department was
hired and significant improvements were made to the grantee's internal control system,
accounting system, and accounting department organizational structure.

Although the grantee had made significant progress in correcting the 12 findings, 4
findings were not fully addressed. Purchases over $500 were not processed in
accordance with the grantee's accounting manual. The grantee's accounting manual
did not address all areas required by LSC's Fundamental Criteria. The cost allocation
system, though documented, was not the same as the allocation system in use. The
grantee's property listing did not include all the required fields contained in LSC's
Fundamental Criteria. The OIG considers all four of the issues presented above as
repeat findings.


                                           AUDIT FINDINGS

PURCHASES OVER $500

Of the ten purchases of goods and services over $500 reviewed , six did not have the
required competitive quotes documented. The grantee did maintain documentation
such as invoices and check copies which support the purchases. However, the OIG
could not determine the basis for the six purchase decisions.

According to AppalReD's purchasing procedures, if the purchase price of an individual
item is over $500 1 , at least three quotes need to be obtained and documented .
Published quotes in publicly available sources such as websites and catalogs may be
used.



1 Although the $500 threshold may seem low, it was established by the grantee in designing its system of internal
control. The main issue is following the controls established by management. Once a control is routinely ignored
or overridden, the whole system of control is weakened and could give the impression that management does not
see internal controls as important.

                                                        2
With respect to one of the purchases, the Fiscal Manager stated that the Executive
Director made phone calls and obtained verbal quotes , but did not document the
process. Discussions with the Fiscal Manager indicated that she had no explanation as
to why the required quotes or sole source justifications were not maintained for the
other nine purchases. However, if a purchase greater than $500 is made and the
grantee management selects one vendor without obtaining quotes, there is no written
policy requiring that a justification be documented and maintained on file.

Adhering to established policies and procedures helps ensure that the internal control
system is functioning as designed and helps ensure assets are protected and effectively
used . Also, the use of reasonable competitive methods helps reduce costs incurred by
the grantee.

Recommendations: The Executive Director should:

Recommendation 1. Ensure that AppalReD employees follow established policies and
procedures related to competition , and obtain and document quotes for purchases
greater than $500.

Recommendation 2. Develop a policy requiring a written justification when a purchase
for an item greater than $500 is made without obtaining the required number of quotes.


ACCOUNTING MANUAL

The grantee's accounting manual was updated in response to the DIG's original audit
finding . However, five required policies are not included in the updated manual. Also ,
while a cost allocation system was documented in the grantee's accounting manual , it
was not the allocation system in use .

Specific areas missing in the grantee's accounting manual were :

          •   Budgeting,
          •   Student Loan Repayment Assistance Program,
          •   Derivative Income,
          •   Travel, and
          •   Contracting .

OIG review of the grantee's cost allocation system disclosed that the system
documented in the grantee's accounting manual was substantially different from what
actually occurs in practice. The written policies state that expenses are charged directly
to the programs based on the number of staff, while the grantee's practice ind icates that
the expenses are split between two accounts, LSC and Kentucky Filing fees, based on
revenues. At the time of our audit, there was a 50-50 split.


                                            3
The Fiscal Manager stated that she was not aware some of these areas needed to be in
the accounting manual. However, grantee management stated that they were revising
the current manual and are incorporating changes suggested by LSC's Office of
Compliance and Enforcement.

To maintain an adequate internal control structure, each recipient must develop a written
accounting manual that describes the specific procedures to be followed by the grantee
in complying with the Fundamental Criteria contained in LSC's Accounting Guide (chap.
3-4, pg . 24). Written policies and procedures are vital to a strong control structure by
helping ensure that proper controls are designed and communicated to all staff and that
staff understand their roles and responsibilities.

Recommendation 3. The Executive Director should ensure that the Fiscal Manager
updates the grantee's accounting manual to include all the above noted policies and
procedures and to reflect the current cost allocation practice in place.


PROPERTY
AppalReD's inventory listing from some of the branch offices did not contain all the
elements suggested by LSC's Fundamental Criteria. Some of the property listings were
missing elements such as the check number, funding source and tag number.

According to LSC's Fundamental Criteria , property purchases should be recorded in a
property subsidiary record . The property record should include the following fields :

   •   description of the property,
   •   date acquired,
   •   check number,
   •   orig inal cost,
   •   fair value (if donated),
   •   method of valuation (if donated),
   •   salvage value, if any,
   •   funding source,
   •   estimated life,
   •   depreciation method,
   •   identification number (tag number) , and
   •   location .

According to discussions with the Fiscal Manager, the recording of physical inventory
was performed by email and over the phone due to time restrictions. As such , she
stated that they did not have time to completely fill in all the required missing elements .




                                             4
Maintaining adequate property records helps ensure the grantee fully accounts for fixed
asset purchases, protects assets from loss or misuse, and supports depreciation
amounts and property asset balances used for financial reporting.

Recommendation 4 . The Executive Director should ensure that all key elements
suggested in LSC's Fundamental Criteria are included on the grantee's property listing .


          SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management agreed in principle with all the findings and recommendations
contained in the report. The Executive Director has required staff to document quotes
for purchases greater than $500 and follow policies and procedures related to
competition . Grantee management has developed a policy requiring written justifications
when purchases greater than $500 are made without the required number of quotes.
This new policy is included as part of their response. Grantee management has revised
their accounting manual to include the noted policies and procedures in the OIG draft
report. Those revisions were approved by the grantee's Board of Directors on
December 7, 2013.         Policies and procedures for the Student Loan Repayment
Assistance Program (LRAP) and Budgeting were not revised during the December 7,
2013 Board meeting, but will be submitted for approval at the next Board meeting . The
grantee also included an updated accounting manual as part of their response . Lastly,
the Executive Director ensured that all key elements suggested in LSC's Fundamental
Criteria are included in their property listing . The updated property listing was submitted
along with their response. A copy of the grantee's response , minus the accounting
manual , is included as an appendix to this report.


      OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

The OIG considers management's comments responsive to the findings and
recommendations contained in the report. The grantee's corrective actions requiring
staff to obtain and document quotes for purchases greater than $500, and the
development of a written policy addressing purchases greater than $500 made without
the required number of quotes , fully addresses Recommendations 1 and 2 in the report.
The grantee also has fully addressed Recommendation 4 by updating their property list
to contain all the key elements suggested in LSC's Fundamental Criteria.

As such, the OIG considers three of the four recommendations closed . However,
Recommendation 3 is only partially addressed by the grantee's revisions to the
accounting manual. Until policies and procedures related to LRAP and budgeting have
been revised and approved by the grantee's Board of Directors at their next Board
meeting, this recommendation will remain open.


                                             5
                                                                       APPENDIX I
                            SCOPE AND METHODOLOGY
       To accomplish the audit objective, the OIG reviewed the 12 findings ,
representing 29 issues, contained in the original report. The 12 finding areas are listed
below.

      •      Disbursements/purchasing
      •      Credit Cards
      •      Travel Expenses
      •      Unrecorded Expenses
      •      The Accounting Manual
      •      Budgeting and Internal Reporting
      •      Cost Allocation
      •      Employee Benefits (employee loans and LRAP)
      •      Consulting Contracts
      •      Vehicle Management
      •      Property Management
      •      Accounting Function and Organizational Structure

To determine whether the grantee had addressed the findings , policies and procedures
were reviewed--including manuals, guidelines, memoranda, and directives setting forth
current practices . Documentation supporting management's corrective actions was
examined . Grantee officials were interviewed to obtain an understanding of the internal
control framework and management staff were interviewed as to their knowledge and
understanding of the processes in place. Internal controls were tested .

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, we reviewed disbursements from a judgmentally selected
sample of employee and vendor files . The sample represented 2.11 percent of the
approximately $6 .9 million disbursed for expenses other than payroll during the period
January 1, 2012 to August 31, 2013, and consisted of 43 transactions totaling
$148,008 .21 . We reviewed invoices, vendor lists, and traced expenditures to the
general ledger. The appropriateness of grantee expenditures was evaluated on the
basis of the grant agreements, applicable laws and regulations, and LSC policy
guidance.

This review was limited in scope and the OIG's focus was only on those findings
presented in the original report. We assessed the reliability of computer generated data
provided by the grantee by reviewing source documentation for the entries selected for
review. In the prior audit report we deemed that the data was unreliable. However, the
grantee has made significant improvements to the extent that now we believe that
the data used is sufficiently reliable for the purposes of this report.


                                          1-1
This review was limited in scope and was not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations.

The on-site fieldwork was conducted at the grantee's main office in Prestonsburg , KY
from September 23, 2013 to September 27, 2013 . Documents reviewed pertained to
the period January 1, 2012 to August 31 , 2013. The remainder of our work was
conducted at LSC headquarters in Washington, DC .

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis fo r the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.




                                          1- 2
                                                                                                                                    APPENDIX"
                                  ApPALACHIAN RESEARCH AND DEFENSE FUND OF KENTUCKY, INC.
                                                                 ADM INISTRATIVE OFFICE                                                        AREA OFFICES :
LAACE DANIEL.S                                                  120 NORTH FRONT AVENUE                                                      BARBOURVUE, KY
 EXECUTIVe DIRECTOR                                  PRESTONSBURG, KENTUCKY 41653-7832                                                          COLUMBIA. KY
e.fniMl: Id IlC nq@tfdl~r 9 'TI                                                                                                                   HAZARD, KY
                                                                       (606) 886-9876                                                           PIKEVilLE, KY,
JOHN M. ROSENBERG                                                    FAX (606) 886 -0079                                                   PRESTONS BURG, KY
DIRECTOR EMERITUS                                                                                                                              ReHMONO. KY
                                                                                                                                               SOMERSET, KY
                                                              CENTRALIZED INTAKE UNIT
                                                                Phone (866) 277-5733
                                                                       www urdfky erg




                March 21,2014



                Mr_Ronald D_ Merryman,
                Assistant Inspector General for Audit
                Office ofInspector General
                Legal Services Corporation
                3333 K Street, NW, 3'd Floor
                Washington, DC 20007-3558

                Re: Response to Draft Report on Follow-Up, RNO 618030
                    Report No. AU14-XX - February 2014

                Dear Mr. Merryman:

                The following is our Response to the LSC Office ofInspector General Draft Report on
                Follow-up, Report No, AUI4-XX:

                Recommendation 1: Ensure that AppalReD employees follow established policies and
                procedures related to competition, and obtain and document quotes for purchases greater
                than $500,

                Response to Recommendation 1: The Executive Director has required staff to follow
                the policies and procedures in place related to competition, and has directed staff to
                document quotes for purchases greater than $500_

                Recommendation 2: Develop a policy requiring a written justification when a purchase
                for an item greater than $500 is made without obtaining the required number of quotes_

                Response to Recommendation 2: Policy has been revised and a copy has been attached
                hereto,

                Recommendation 3: The Executive Director should ensure that the Fiscal Manager
                updates the grantee's accounting manual to include all the above noted policies and
                procedures and to reflect the current cost allocation practices in place,



       1111      LSC                  ' FUNDED BY THE LEGAL SERVICES CORPORATION, THE COMMONW EALTH OF KENTUCKY, KENTUCK Y IOLTA fUNDS ,
                                                                  OTHER FEDERAL FUNDS AND PRr.'ATE DONATIONS"
                                                                             WWWKYJl/STlCEQRG
  March 21. 2014                                                                                Page 2

  Mr. Ronald D. Merryman
  Office ofInspector General
  Legal Services Corporation




  Response to Recommendation 3: The Executive Director has directed the Fiscal
  Manager to revise our Accounting Manual to include the noted policies and procedures
  included in the OIG's Draft Report. The Fiscal Manager has revised our Accounting
  Manual and those revisions were approved by the Board on December 7, 2013. A copy
  of the Accounting Manual is attached hereto . The Student Loan Repayment Assistance
  Program and Budgeting Policies were not revised during the December 7, 2014, Board
  meeting, but will be revised and submitted for approval by the Board at our next regularly
  scheduled Board meeting.

  Recommendation 4: The Executive Director should ensure that all key elements
  suggested in LSC's Fundamental Criteria are included on the grantee's property listing.

  Response to Recommendation 4: The Executive Director has ensured that all key
  elements suggested in LSC's Fundamental Criteria have been included on our Property
  Listing. Attached hereto is the updated Property Listing.

  Submitted this the 21" day of March. 2014.



if~,"1f'~
  Executive Director




Ii" LSC         "FUNDED BY THE LEGAL SERVICES CORPORATION, THE COMMONWEALTH OF KEtmlCK V, KENTUCKY IOlTA FUNDS,
                                           OTHER FEDERAL FUNDS AND PRWATE DONATIONS·
                                                      WWWKYIlJST1CE.QRG
                                                                                         Page 1 of 2

                                PURCHASING PROCEDURES


AppalReD has developed and put into place a purchase order system and this should be used as a
reference source to answer basic questions regarding purchasing procedures. Inevitably,
questions will arise and exceptional circumstances will come up that are not covered here. When
this occurs call or email the Chief Fiscal Officer for clal"ification. Proper use of the P.O. system
provides an accurate record of products and services that have been requested.

When To Use A Purchase Order

A Purchase Order number must be obtained for all purchases of products or services other than
Litigation Expenses, Personal Reimbursements such as travel expenses, re-occurring office
expenses (such as rent, utilities and telephone) or Petty Cash (used for incidental expenses under
$50).

Procedures to F ollow

   1.   The person responsible for placing orders for products or services in the individual
       offices wil l complete a Requisition For Supplies.
   2. The Requisition For Supplies needs to be signed by the individual completing the request
       and signed by the Director ofthe individual office (such as the DA, Pro-Bono
       Coordinator, ED, or Deputy Director) giving authorization for their staff to submit the
       request for purchase of products or services for the individual office.
   3. Once the Requisition For Supplies has been completed and signed, call the Executive
       Assistant in the Administrative Office to obtain a Purchase Order Number and enter the
       Purchase Order Number assigned, on the Requisition For Supplies, located at the bottom
       of the fonn on the line that is labeled P.O. No .
   4. After receiving and entering the Purchase Order Number on the Requisition For Supplies,
       send (scan, fax, mail, email) the form to the Executive Assistant.
   5. The Executive Assistant will complete the assigned Purchase Order and obtain all
       necessary levels of approval for the purchase of products or services.
   6. The Executive Assistant will scan a copy of the completed Purchase Order to the
       individual office for their records.
   7. The Executive Assistant will maintain a log of all Purchase Orders issued and the
       original copies placed in a binder.
   8. The Executive Assistant will forward the yellow copy of the Pm-chase Order to the
       Support Staff Coordinator to place the order for the product or service if the order is to be
       placed by the Administrative Office.
   9. The Executive Assistant will forward the pink copy of the Purchase Order to the Assistant
       Fiscal Officer.
   10. The Assistant Fiscal Officer will maintain a file with all outstanding Purchase Orders.
   11. When the shipment of products or services is received at the individual offices, staff
       checks the order received to the packing slip. Sign the packing slip verifying that the
       actual amount received was the amount recorded on the packing slip. Forward the
       packing slip to the Assistant Fiscal Officer (Accounts Payable Department).



                                                            Approved 08-09-2012 revised 03-19-2014
                                                                                        Page 2 of2

    12. When the Assistant Fiscal Officer receives an invoice for payment, the copy of the
        Purchase Order, Requisition For Supplies, the packing slip and any other supporting
        documentation are attached to the invoice before payment is made.


Do I Need a Purchase Order for Wal-Mart Credit Card purchases?
Yes. As stated on the previous page, a Purchase Order and Requisition For Supplies must be
obtained for all purchases of products or services other than Litigation Expenses, Personal
Reimbursements such as travel expenses, re-occurring office expenses (such as rent, utilities and
telephone) or Petty Cash (used for incidental expenses under $50).



Do J Need To Get Ouotes?
If the purchase price of an individual item is over $500, there needs to be documentation of at
least three comparable quotes . Published quotes in publicly available sources such as website
and catalogs may be used. Property purchases in an amount of $1 0,000 for a single item to be
acquired with LSC fimds will require that the program follow LSC bidding and purchasing
policies. If you are unable to obtain documentation of the three required quotes or unable to
obtain the required number of quotes, a written justification needs to be submitted stating the
reason for the deviation from the purchasing policy.




                                                           Approved 08-09-2012 revised 03-19-2014
